                          Closeout of Case Number I99070028

        This matter arose as a result of                                   nquiry relating to
a complaint filed with their office fro                                   ad been harassed
to             in an NSF study. This office opened an I case file to address the possibility
of an unknown party using the NSF name or survey requirements to seek data on an
individual, perhaps improperly. As it turns out, it was in fact, an NSF contractor
                                       as the subject of this complaint. NSF's Division of
                                     as a number of contractors who perform various
                                      and longitudinal surveys of what employment
experiences these graduates have after some time spknt in the workforce. The
                                                                                 "!I?
program-offiial responsible for-this survey explained the pro-c-ess and-procede_- ac&e
contractor in this instance used to contact the complainant. The company submitted a log
of telephone and Federal Express notices sent to this individual. The program officer
commented that there are 20,000 participants contacted for these.surveys and that he
usually receives approximately 4-5 complaints per survey cycle. The contractor has a c.
process whereby upon instruction from the program officer, the complainant's name
would be removed and would no longer be contacted for a response to this survey. In this
instance, the progr official advised me that he would check with other program
officers for other       urveys to assure that if the complainant's name were on others,
she would also be removed from those lists.

        The program official and I placed a call to th
the complaint letter and went through a careful
trade practice consultant. She requested that
National Science Foundation being a federal agency and that as such, she would close the
complaint file, since they do not consider complaints against agencies of the federal
government.
   '

        I advised her that our letter would be forthcoming and that we certainly hoped she
would pass along our apology and explanation to the complainant. She will do so and
will close the case upon receipt of our letter.

       The policy and procedures in place that
                                                w       ses to address complaints ftom
survey recipients appear adequate. We have conc u ed that there does not appear to be a
need for further investigation or corrective action of any kind.

       No further action will be taken on this case.
